TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Trends in Criminal Investigation’s
                        Enforcement Activities Showed
                    Improvements for Fiscal Year 2010, With
                     Gains in Most Performance Indicators



                                           July 25, 2011

                              Reference Number: 2011-30-068




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


TRENDS IN CRIMINAL INVESTIGATION’S                    statutes relating to these violations, and
ENFORCEMENT ACTIVITIES SHOWED                         recommend prosecution as warranted.
IMPROVEMENTS FOR FISCAL                               CI surpassed its goals for FY 2010 by expending
YEAR 2010, WITH GAINS IN MOST                         71.2 percent of its time on total tax
PERFORMANCE INDICATORS                                investigations, with 52.6 percent of that time
                                                      devoted to legal source tax investigations. CI
                                                      also reported that the number of legal source tax
Highlights                                            investigation initiations increased by
                                                      12.3 percent and the number of tax-related
Final Report issued on July 25, 2011                  initiations increased by 10.6 percent. Further,
                                                      the number of subjects convicted of legal source
Highlights of Reference Number: 2011-30-068           tax crimes increased 6.9 percent from FY 2009
to the Internal Revenue Service Chief, Criminal       and has increased 22.6 percent since FY 2006.
Investigation.                                        Overall, the results validate that tax cases are a
                                                      priority for CI.
IMPACT ON TAXPAYERS
                                                      In FY 2010, CI surpassed its goal of completing
Criminal Investigation’s (CI) primary resource        3,900 investigations by completing 4,325. CI
commitment is to develop and investigate legal        demonstrated efficiency in processing legal and
source tax cases. The prosecution of these            illegal source investigations by reducing the
cases is key to supporting the Internal Revenue       average days elapsed to complete an
Service’s (IRS) overall compliance goals,             investigation to 365 days, an 8.8 percentage
enhancing voluntary compliance with the tax           improvement (rounded) from the FY 2009
laws, and promoting fairness and equity in our        average of 401 days. In addition, CI exceeded
tax system. In addition, CI uses media and            its FY 2010 goal of 4,000 initiated subject
other outreach opportunities to deter financial       investigations by initiating 4,706. CI
crime and enhance voluntary tax compliance.           management attributes the increases to better
                                                      management oversight, which includes stressing
WHY TIGTA DID THE AUDIT
                                                      the need to complete initial interviews and fact
This audit was initiated as part of TIGTA’s Fiscal    gathering within the first few months of the
Year (FY) 2011 Annual Audit Plan and                  investigation.
addresses the major management challenge of
                                                      In addition, CI continues to work on increasing
Tax Compliance Initiatives. The overall
                                                      its special agent staffing and coordinating with
objective of this review was to provide a
                                                      the operating divisions to strengthen the Fraud
statistical portrayal with trend analyses of
                                                      Referral Program.
CI’s enforcement activities for FYs 2006 through
2010.                                                 WHAT TIGTA RECOMMENDED
WHAT TIGTA FOUND                                      Although TIGTA made no recommendations in
                                                      this report, IRS officials were provided an
In support of the IRS’s overall effort to reduce
                                                      opportunity to review the draft report. IRS
the Tax Gap, CI achieved improved
                                                      management did not provide any report
performance during FY 2010 by committing
                                                      comments.
resources to legal and illegal source tax
investigations and working with the IRS
operating divisions to develop and investigate
tax cases.
During FY 2010, CI received approximately
$658 million of the IRS’s Operating Plan budget
to fund the criminal investigation programs that
explore potential criminal violations of the
Internal Revenue tax laws, enforce criminal
                                           DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            July 25, 2011


 MEMORANDUM FOR CHIEF, CRIMINAL INVESTIGATION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Trends in Criminal Investigation’s Enforcement
                             Activities Showed Improvements for Fiscal Year 2010, With Gains in
                             Most Performance Indicators (Audit #201130034)

 This report presents the results of our review to provide a statistical portrayal with trend analyses
 of Criminal Investigation’s enforcement activities for Fiscal Years 2006 through 2010. This
 review was conducted as part of our Fiscal Year 2011 Annual Audit Plan and addresses the
 major management challenge of Tax Compliance Initiatives.
 Although we made no recommendations in this report, we did provide Internal Revenue Service
 (IRS) officials an opportunity to review the draft report. IRS management did not provide us
 with any report comments.
 Copies of this report are also being sent to the IRS managers affected by the report.
 Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
 Inspector General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.
                                 Trends in Criminal Investigation’s Enforcement
                              Activities Showed Improvements for Fiscal Year 2010,
                                    With Gains in Most Performance Indicators




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Criminal Investigation’s Statistics Validate That Legal Source Tax
          and Tax-Related Investigations Are a Priority.............................................. Page 4
          Changes in Management Oversight Resulted in Increased
          Initiations and Completions .......................................................................... Page 8
          Efforts Continue to Increase Special Agent Staffing .................................... Page 9
          Efficiency Gains Reduce Investigation Time ............................................... Page 10
          Criminal Investigation Is Strengthening Its Fraud Referral Program to
          Increase Investigations ................................................................................. Page 11
          Conclusion .................................................................................................... Page 15

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 16
          Appendix II – Major Contributors to This Report ........................................ Page 17
          Appendix III – Report Distribution List ....................................................... Page 18
          Appendix IV – Detailed Charts of Statistical Information ........................... Page 19
          Appendix V – Related Treasury Inspector General for Tax
          Administration Audit Reports ....................................................................... Page 30
          Appendix VI – Glossary of Terms ................................................................ Page 31
            Trends in Criminal Investigation’s Enforcement
         Activities Showed Improvements for Fiscal Year 2010,
               With Gains in Most Performance Indicators




                    Abbreviations

BPR           Business Performance Review
CI            Criminal Investigation
CIMIS         Criminal Investigation Management Information System
FTE           Full-Time Equivalent
FY            Fiscal Year
IRS           Internal Revenue Service
U.S.C.        United States Code
VDP           Voluntary Disclosure Program
                            Trends in Criminal Investigation’s Enforcement
                         Activities Showed Improvements for Fiscal Year 2010,
                               With Gains in Most Performance Indicators




                                            Background

In February 2006, the Internal Revenue Service (IRS) released updated compliance estimates
showing that the gross Tax Gap1 was $345 billion in Tax Year 2001. In an explanation provided
in the Criminal Investigation (CI) Program Assessment Rating Tool, Office of Management and
Budget examiners noted that the IRS had a goal of reducing the percentage of taxpayers who
believe it is acceptable to cheat on their taxes from 12 percent in Fiscal Year (FY) 2004 to
10 percent in FY 2010. However, the 2010 Taxpayer Attitude Survey, conducted by the IRS
Oversight Board, shows that taxpayers’ attitudes are again at the 2004 level. According to
survey results, 12 percent of the surveyed population
believed that it was acceptable to cheat on their taxes, a
slight decrease compared to 13 percent from the 2009                Eighty-seven percent of
survey. In addition, 87 percent said it was not at all              respondents to the IRS
acceptable, compared to 84 percent in the 2009 survey.         Oversight   Board 2010 Taxpayer
                                                                 Attitude Survey responded it
The IRS Oversight Board, which conducted the survey,              was not at all acceptable to
did not offer any perspective on why taxpayers’ attitudes        cheat on your income taxes.
towards cheating might have changed. The IRS
Commissioner, while emphasizing a balanced program
between taxpayer service and tax enforcement, stresses the need for an aggressive enforcement
program for those who understand their tax obligations but fail to comply.
CI’s primary mission is to serve the American public by investigating potential criminal
violations of the Internal Revenue Code and related financial crimes (e.g., money laundering,
corporate fraud, and terrorism financing) to promote compliance with the tax law and confidence
in the United States’ tax administration system. CI’s special agents’ investigative jurisdiction
also includes tax money laundering and Bank Secrecy Act2 laws. CI prepared a Strategic
Assessment document for FYs 2007 to 2012 to supplement and implement the goals in the IRS’s
Strategic Plan. The compliance, business, and communication strategies of CI include:
    •   Maintaining focus on legal source tax investigations and partnering with the IRS
        operating divisions to deploy a successful Fraud Referral Program.
    •   Working effectively with the Department of the Treasury, the Department of Justice, and
        other law enforcement partners to combat corporate fraud, terrorism, and the financial
        aspects of other criminal activity and to enhance Bank Secrecy Act compliance efforts.

1
 See Appendix VI for a glossary of terms.
2
 Pub. L. No. 91-508, 84 Stat. 1114 (1970) (codified as amended in scattered sections of 12 U.S.C., 18 U.S.C., and
31 U.S.C.). Regulations for the Bank Secrecy Act, and other related statutes, are 31 C.F.R. §§ 103.11-103.77
(2009).
                                                                                                           Page 1
                            Trends in Criminal Investigation’s Enforcement
                         Activities Showed Improvements for Fiscal Year 2010,
                               With Gains in Most Performance Indicators



    •   Increasing workforce productivity through improvements in recruitment, retention, and
        strengthened leadership.
    •   Increasing efficiency through improvements in business systems and the reduction of
        investigative cycle time.
Since FY 2004, we have been presenting an annual statistical portrayal of CI’s enforcement
activities.3 The objective of our first year’s audit was to provide statistical information and trend
analyses of CI’s statistics since the issuance of the Webster Report4 in April 1999, which
concluded that CI had drifted away from its primary mission of investigating criminal tax
violations. Since then, our reports have focused on year-to-year statistical comparisons, as well
as looking at trends over a protracted period, to provide perspective on CI’s enforcement
activities.
Our data analyses were performed in the Treasury Inspector General for Tax Administration’s
office in Atlanta, Georgia, during the period January through April 2011. We used national
reports from CI’s Management Information System (CIMIS) during our review. Because of time
and resource constraints, we did not audit CI’s system to validate the accuracy and reliability of
its information. Also, we did not assess internal controls because it was not applicable within the
context of our audit objective. Otherwise, we conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective.
Detailed information on our objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II. Detailed charts and tables referred to
in the body of the report are included in Appendix IV. A glossary of terms is included in
Appendix VI.
Most of the calculations throughout the report and Appendix IV are affected by rounding. All
initial calculations were performed using the actual numbers rather than the rounded numbers
that appear in the report. Much of the data included in this report updates prior Treasury
Inspector General for Tax Administration reports on CI trends. Appendix V presents a list of
those reports.




3
 For more information, see Appendix V, Report 1.
4
 Review of the Internal Revenue Service’s Criminal Investigation Division (Publication 3388; 4-1999), also known
as the Webster Report.
                                                                                                         Page 2
                             Trends in Criminal Investigation’s Enforcement
                          Activities Showed Improvements for Fiscal Year 2010,
                                With Gains in Most Performance Indicators




                                       Results of Review

In support of the IRS’s overall effort to reduce the Tax Gap, CI achieved improved performance
during FY 2010 by committing resources to legal and illegal source tax investigations and
working with the IRS operating divisions to develop and investigate tax cases. In addition, CI’s
Voluntary Disclosure Program5 (VDP) provided information on banks and professionals,
including foreign professionals, who facilitate tax evasion. During FY 2010, CI received
approximately $658 million of the IRS’s Operating Plan budget to fund the criminal
investigation programs that explore potential criminal violations of the tax laws, enforce criminal
statutes relating to these violations, and recommend prosecution as warranted. Figure 1 shows
the dollars allocated to CI for completion of these programs.
                        Figure 1: Comparison of CI Budget Allocations
                                  for FYs 2006 through 2010

       CI Budget Allocation                2006      2007          2008          2009           2010
     (Dollars in millions – Rounded)

     Appropriation                         $566      $566          $580          $598           $607

     Reimbursable Resources                $ 44      $ 32          $ 49          $ 40           $ 51


     Total Resources                       $610      $598          $629          $638           $658

    Source: IRS Chief Financial Officer.

CI’s programs identify and document the movement of both legal and illegal sources of income
in cases of suspected intent to defraud. These programs also include investigation and
prosecution of tax and money laundering violations associated with narcotic organizations. In
FY 2010, the IRS used 4,066 Full-Time Equivalent (FTE) positions to complete its criminal
investigation programs.
Using its unique statutory jurisdiction and financial expertise, the IRS made significant
contributions to important national law enforcement priorities. According to the FY 2010
Business Performance Review (BPR) document, CI improved its performance from the levels
achieved in FY 2009 in the following key areas:


5
  On March 26, 2009, the IRS Commissioner announced the VDP that permitted taxpayers with hidden assets and
income offshore to come back into the tax system.
                                                                                                       Page 3
                            Trends in Criminal Investigation’s Enforcement
                         Activities Showed Improvements for Fiscal Year 2010,
                               With Gains in Most Performance Indicators



    •   Completed more than 4,300 criminal investigations – an increase of 12.4 percent.
    •   Maintained a Department of Justice case acceptance rate of 93.9 percent and a United
        States Attorney case acceptance rate of 91.8 percent – increases of 2.2 and 3.1 percent,
        respectively.
    •   Achieved a conviction rate of 90.2 percent – an increase of 3 percent.
    •   Obtained 2,184 convictions – an increase of 3.8 percent.
CI’s performance has improved despite a period of decrease in special agent staffing.6 Total
special agent staffing has decreased 1.9 percent since FY 2006, but showed improvement from
last year, increasing 1 percent from 2,725 in FY 2009 to 2,751 in FY 2010.7 Despite the overall
decrease in staffing from FY 2006, CI saw improved ratings in its staffs’ job satisfaction during
the annual IRS All Employee Survey. When asked “Considering everything, how satisfied are
you with your job?” 82 percent of respondents answered favorably – a 3 percent increase from
FY 2009.

Criminal Investigation’s Statistics Validate That Legal Source Tax and
Tax-Related Investigations Are a Priority
In FY 2010, we reported improving trends in several areas, including the number of legal source
tax investigation initiations, the number of tax-related initiations, and case completions. CI’s
Annual Business Plans have consistently described legal source tax investigations as a top
investigative priority, and we agree that these investigations are an important component of all
tax-related investigations.
CI surpassed its goals for FY 2010, which was to maintain a minimum 68 percent direct time on
total tax investigations and 50 percent direct time on legal source tax investigations, which is a
subset of total tax investigations. As shown in Figure 2, CI expended 71.2 percent of its time on
total tax investigations, with 52.6 percent of that time devoted to legal source tax investigations.




6
  This decrease includes new recruits, part-time special agents, field and Headquarters Office managers and program
analysts, and Lead Development Center and Scheme Development Center special agents.
7
  See Appendix IV, Figure 1.
                                                                                                           Page 4
                                                               Trends in Criminal Investigation’s Enforcement
                                                            Activities Showed Improvements for Fiscal Year 2010,
                                                                  With Gains in Most Performance Indicators



                                                 Figure 2: Percentage of Direct Investigative Time Expended
                                              on Legal Source Tax and Total Tax Investigations Each Fiscal Year

                                             80%
      Direct Investigative Time Percentage




                                             70%




                                                                                                                                72.0%
                                                                                                    70.8%
                                             60%
                                                            70.0%




                                                                                                                                                71.2%
                                             50%                            69.0%

                                             40%




                                                                                                                                        52.6%
                                                                                                                        52.4%
                                                                                            51.2%
                                                                    50.4%
                                                    48.2%




                                             30%

                                             20%

                                             10%
                                                        FY 06           FY 07                  FY 08                       FY 09            FY 10

                                                                                    Legal Source            Total Tax


Source: CI’s BPR report for FY 2006 and CIMIS INV001 (CI Summary Statistics) for FYs 2007 through 2010 legal
source data. The Total Tax computation was from CI’s BPR reports.

In FY 2010, the number of legal source tax investigation initiations increased by 12.3 percent,
and the number of tax-related initiations increased by 10.6 percent compared to FY 2009.
However, the percentage of all initiations that were legal source tax and tax-related decreased by
0.7 and 2 percentage points, respectively.8 The decreased percentage of initiations that were
legal source may impact CI’s commitment of pursing legal source tax and tax-related
investigations as its top investigative priority.
In FY 2007, we raised a concern that a FY 2008 budget initiative to increase the direct
investigative time on narcotics-related cases to a range of 12 to 14 percent would affect CI’s
ability to investigate legal source tax and tax-related crimes.9 CI subsequently established a
targeted range of 11 to 13 percent. Last year, CI reported that narcotics-related direct
investigative time was 11.5 percent. This year, CI again met its goal and reported an
11.2 percent rate. If CI can maintain narcotics-related direct investigative time at or below these
current levels, then CI should maintain or see increased time applied towards its legal source tax
and tax-related program areas.



8
    See Appendix IV, Figures 4 and 5.
9
    See Appendix V, Report 4.


                                                                                                                                                    Page 5
                                                           Trends in Criminal Investigation’s Enforcement
                                                        Activities Showed Improvements for Fiscal Year 2010,
                                                              With Gains in Most Performance Indicators



In FY 2010, the total number of investigations referred for prosecution increased by 18.1 percent
from FY 2009. Because legal source tax and tax-related investigations comprise a subset of the
total number referred for prosecution, these investigations also showed increases. As shown in
Figure 3, the number of legal source tax investigations referred for prosecution increased
23.5 percent from FY 2009. In addition, tax-related investigations referred for prosecution
increased 17.9 percent during this same time.10 The increase in investigations referred for
prosecution may result in an increase in the number of subjects indicted for legal source tax or
tax-related crimes next fiscal year.
                                      Figure 3: Number of Subject Investigations Referred for Prosecution
                                           Each Fiscal Year by the Compliance Strategy Program and
                                                the Percentage That Is Legal Source Tax Crimes

                                      1,400                                                                                                                        100%




                                                                                                                                                     1,340
                                                                                                                                                                   90%
     Subject Investigatins Referred




                                                                             1,313




                                      1,200
                                                     1,265




                                                                                                                                                                          Legal Source Percentage
                                                                                                      1,204




                                                                                                                              1,200
                                                                                                                                                                   80%
                                      1,000
            for Prosecution




                                                                                                                                            1,035
                                                                                                                                                                   70%
                                                                      976




                                                                                              893




                                       800                                                                                                                         60%
                                                                                                                       838
                                              834




                                       600                                                                                                                         50%
                                                                                                              688




                                                                                                                                                             659
                                                             621




                                                                                                                                                                   40%
                                                                                     548




                                                                                                                                      532




                                       400
                                                                                                                                                                   30%
                                                                            34.4%                   32.1%                    32.6%                  34.1%
                                       200          30.7%
                                                                                                                                                                   20%
                                         0                                                                                                                         10%
                                                    FY 06                   FY 07                   FY 08                    FY 09                  FY 10

                                                       Legal Source                  Illegal Source                 Narcotics-Related                % Legal Source


Source: CIMIS Report INV002 (Summary by Program Area).

The number of subjects convicted of legal source tax crimes increased 6.9 percent from
FY 2009 and has increased 22.6 percent since FY 2006.11 However, the number of subjects
sentenced for legal source tax crimes decreased 2.4 percent from FY 2009, and the number of
subjects sentenced for a tax-related crime decreased 5.3 percent from FY 2009.12 In addition, the
percentage of all sentences that were for tax-related crimes was 48.5 percent, the lowest
percentage in the last 5 years and a slight decrease from FY 2009.13 CI management attributes
part of the decreases to the low number of investigation completions and prosecution

10
   See Appendix IV, Figure 12.
11
   See Appendix IV, Figure 14.
12
   See Appendix IV, Figures 15 and 16.
13
   See Appendix IV, Figure 15.
                                                                                                                                                                                     Page 6
                              Trends in Criminal Investigation’s Enforcement
                           Activities Showed Improvements for Fiscal Year 2010,
                                 With Gains in Most Performance Indicators



recommendations experienced in FY 2009. We agree with CI that the cyclical nature of CI
caseload impacts the investigative completion and prosecution rates. For example, decreases in
investigations could result in subsequent decreases in the overall number of completed
investigations 1 to 2 years later. The prosecution of legal source tax and tax-related
investigations is key to supporting the IRS’s overall compliance goals, enhancing voluntary
compliance with the tax laws, and promoting fairness and equity in the tax system.

CI continues to emphasize publicizing its investigation results
In an effort to deter financial crime and enhance voluntary tax compliance, CI uses media and
other outreach opportunities to maximize publicity of investigations. In FY 2010, CI
representatives participated in more than 500 outreach events. Audiences included tax and
accounting professionals, representatives from financial institutions, business and industry,
government, educational institutions, and the public. Topics included general fraud awareness,
tax and accounting fraud, money laundering, the Bank Secrecy Act, and other financial fraud.
CI continues to emphasize publicizing the results of tax prosecutions resulting from its tax
investigations. This effort conveys to taxpayers that violations of the Internal Revenue Code and
related financial crimes are investigated and prosecuted. The overall publicity rate for
prosecutions in FY 2010 was 87.3 percent – an all-time high, and 9.3 percent higher than the
targeted rate of 78 percent. The 92.4 percent publicity rate for legal source tax investigations is
4.5 percentage points higher than in FY 2009.14
Research suggests that higher levels of criminal sentences lead to greater tax compliance.
Figure 4 provides details of average incarceration periods for each of CI’s Compliance Strategy
Programs. The percentage increase in the number of months a subject is incarcerated for legal
source tax investigations rose 35.3 percent (from an average of 17 to 23 months) between
FYs 2006 and 2010. The incarceration time increased 5.4 percent (from an average of 37 to
39 months) for illegal source investigations; however, it decreased 4.3 percent (from an average
of 94 to 90 months) for narcotics-related investigations between FYs 2006 and 2010. From
FY 2009 to FY 2010, the incarceration rate increased 11.4 percent for illegal source
investigations and 1.1 percent for narcotics-related investigations.




14
     See Appendix IV, Figure 17.
                                                                                            Page 7
                                      Trends in Criminal Investigation’s Enforcement
                                   Activities Showed Improvements for Fiscal Year 2010,
                                         With Gains in Most Performance Indicators



                    Figure 4: Average Number of Months a Subject Is Incarcerated*
                           Each Fiscal Year by Compliance Strategy Program

              100
               90
                                   94




                                                                                                                   90
                                                                                                 89
               80




                                                                            82
                                                      80
               70
               60
     Months




               50
               40




                                                                                                            39
                                                                   38
                            37




               30
                                               35




                                                                                          35
               20




                                                                                                      23
                                                                                    20
                                         18




                                                             18
                      17




               10
                0
                           FY 06              FY 07               FY 08                  FY 09             FY 10
                                         Legal Source      Illegal Source        Narcotics-Related


* Incarcerated may include prison time, home confinement, electronic monitoring, or a combination thereof.
Source: CIMIS Report INV002 (Summary by Program Area).

Changes in Management Oversight Resulted in Increased Initiations
and Completions
In FY 2009, we expressed concerns that CI would not meet its case completion15 goals due to the
loss of experienced special agents along with the increased emphasis it planned to give to reduce
its pipeline inventory.16 To address this condition, CI lowered its completion goal by 2.5 percent,
from 4,000 to 3,900. Although CI did not meet its goal to complete 3,900 investigations in
FY 2009, it did surpass the FY 2010 goal of 3,900 by completing 4,325 investigations. CI
management attributes this increase to better management oversight, which includes stressing the
need to complete initial interviews and fact gathering within the first few months of the
investigation. For example, CI management is emphasizing that special agents complete key
interviews within the first 180 days of subject criminal investigations so that go/no-go decisions
can be made quicker.
CI exceeded its FY 2010 goal of 4,000 initiated investigations. Specifically, 4,706 subject
investigations were initiated, representing a 14.2 percent increase from the FY 2009 total of
4,121.17 In addition, the number of subject investigations open in inventory increased 9.7 percent


15
   CI considers a completed case one it either discontinues or refers for prosecution.
16
   See Appendix V, Report 6.
17
   See Appendix IV, Figure 3.
                                                                                                                    Page 8
                              Trends in Criminal Investigation’s Enforcement
                           Activities Showed Improvements for Fiscal Year 2010,
                                 With Gains in Most Performance Indicators



from the FY 2009 total of 3,976 investigations.18
According to the FY 2010 BPR document, CI plans                      CI exceeded its
to complete 3,900 investigations and obtain                    FY  2010  goal of 4,000 by
                                                                initiating 4,706 subject
2,135 convictions in FY 2011. CI management
                                                               criminal investigations.
expects that the 14.2 percent increase in initiations it
experienced this fiscal year will provide for a future
increase in completions and resulting convictions. Because CI reported that it took, on average,
less than 1 year (306 days) to refer a case for prosecution,19 we believe the increase in initiations
contributed to CI exceeding its FY 2010 completion goals by 12.4 percent.

Efforts Continue to Increase Special Agent Staffing
Although total special agent staffing has decreased 1.9 percent since FY 2006, it showed
improvement from last year, increasing 1 percent from 2,725 in FY 2009 to 2,751 in FY 2010.20
The number of field special agents decreased 2.9 percent from FY 2006, but has increased by
9 percent from FY 2009. However, these increases do not represent an increase in fully trained
agents ready to work on investigations. According to CI personnel, in FY 2010 there were
111 newly hired agents (still undergoing extensive training)21 and a loss of 146 experienced
agents. Due to the costs associated with increased hiring at the end of FY 2009, CI was unable
to achieve attrition hiring in FY 2010. Increasing special agent staffing remains a challenge as
CI continues to lose experienced special agents to attrition faster than they can be replaced. CI
hopes to achieve attrition hiring in FY 2011. However, we are concerned that the continued net
loss of experienced special agents will negatively affect CI’s productivity in the near future.

Trends related to the number of investigations per special agent
CI uses the average inventory of subject investigations per special agent22 and the average total
inventory per special agent to measure the quantity of work performed by special agents. The
average inventory calculation includes only open subject investigations, whereas the total
inventory calculation includes primary investigations, open subject investigations, and pipeline
subject investigations. Figure 5 shows the average inventory of subject investigations per special
agent was 1.92 in FY 2010, a 1.05 percent increase from 1.90 in FY 2009, and an increase of
9.09 percent from 1.76 in FY 2006. The total average inventory per special agent decreased



18
   See Appendix IV, Figure 8.
19
   See Appendix IV, Figure 11.
20
   See Appendix IV, Figure 1.
21
   CI personnel indicated that the full benefit of new hires, in terms of production ability, is generally not realized for
1 year. This is because academy training lasts for approximately 6 months and then new agents are assigned an
on-the-job training coach.
22
   CI considers only those special agents that were actively working on investigations in these calculations.
                                                                                                                  Page 9
                            Trends in Criminal Investigation’s Enforcement
                         Activities Showed Improvements for Fiscal Year 2010,
                               With Gains in Most Performance Indicators



significantly to 5.31, representing a 24 percent decrease from 6.99 in FY 2009; however,
FY 2010 average inventory represents an 11.55 percent increase from 4.76 in FY 2006.
                Figure 5: The Number of Open Subject Investigations, the
                Total of All Investigations at the End of Each Fiscal Year,
                      and the Average Inventory per Special Agent




Source: CI’s analysis of the CIMIS.

Efficiency Gains Reduce Investigation Time
CI continues to demonstrate efficiencies in processing legal and illegal source investigations by
showing improvements in the number of elapsed days to complete an investigation. CI’s
benchmark figure for legal and illegal source investigation completions is 415 to 425 days. In
FY 2010, CI reported an average of approximately 365 days for legal and illegal source
investigation completions, 12 percent below the benchmark and an 8.8 percent improvement
from the FY 2009 average of 401 days. The average elapsed days to recommend a legal or
illegal source investigation for prosecution improved to 350 days, down from 394 days in
FY 2009. In addition, the FY 2010 average of 398 days to discontinue a legal or illegal source
investigation was below the 413 day average in FY 2009 by 3.7 percent. CI management
attributes the improvements in part to its increased emphasis to getting back to basics, which
focuses the agents on developing cases with better prosecution potential.
Special agents completed 1.9 investigations per Enforcement FTE during FY 2010, compared to
1.73 investigations during FY 2009. Figure 6 shows an increase of 2.6 percent (2,223 to 2,281)
in FTEs directly related to CI’s enforcement activities in FY 2010. The increase in FTEs follows
decreases since FY 2006 directly associated with CI’s enforcement activities. CI experienced the


                                                                                           Page 10
                                               Trends in Criminal Investigation’s Enforcement
                                            Activities Showed Improvements for Fiscal Year 2010,
                                                  With Gains in Most Performance Indicators



increases in completed investigations even though the number of special agents on the rolls
decreased by 2 percent during FY 2010.
                                       Figure 6: Comparison of Investigations Completed
                                              Per Enforcement FTE by Fiscal Year

                               2                                                                                           2,700


                                                                                                                           2,600
                              1.9   2,503
   Completed Investigations




                                                        2,469




                                                                                                                                   Full-Time Equivalents
                                                                                                                           2,500

                              1.8
                                                                                                                           2,400
                                                                            2,330
                                                                                                                  2,281
                                                                                                                           2,300
                              1.7                                                          2,223

                                                                                                                           2,200
                              1.6
                                                                                                                           2,100
                                     1.66




                                                          1.73




                                                                              1.74




                                                                                            1.73




                                                                                                                    1.9
                              1.5                                                                                          2,000
                                    FY 06               FY 07               FY 08          FY 09                  FY 10

                                            Investigations Completed per Enforcement FTE           Full-Time Equivalents



Source: CI’s BPR reports.

Further, CI experienced a lower cost per conviction of $324,776 than the planned amount of
$331,000. CI uses this figure to measure its Program’s effectiveness and calculates the amount
by using its financial plan (i.e., the money allocated for its operations) divided by the number of
convictions. CI also uses the number of convictions and the conviction rate as budgetary
performance measures. Based on the improvements cited previously, we are encouraged by CI
management’s efforts to reduce the elapsed days needed to complete an investigation and believe
that their new focus on oversight should continue to bring improvements.

Criminal Investigation Is Strengthening
Its Fraud Referral Program to Increase
                                                                                            CI is working closely with
Investigations                                                                               IRS operating divisions
                                                                                                 to strengthen its
CI’s FY 2011 Annual Business Plan continues the                                             Fraud Referral Program.
commitment to focus on the delivery of
high-impact, high-quality investigations by working
closely with the IRS operating divisions to develop and investigate significant tax cases. The

                                                                                                                              Page 11
                              Trends in Criminal Investigation’s Enforcement
                           Activities Showed Improvements for Fiscal Year 2010,
                                 With Gains in Most Performance Indicators



Fraud Referral Program is seen as one of the key sources of high-income tax fraud
investigations, along with the Questionable Refund and the Return Preparer Programs. The VDP
and the IRS’s International activities are other sources for potential investigations. CI’s
commitment helps the IRS’s overall efforts to reduce the Tax Gap. CI and the operating
divisions need to continue to emphasize the importance of these types of investigations as they
relate to tax administration and the IRS’s efforts to improve voluntary compliance.

Increases in internal fraud referrals during FY 2010
Fraud referrals remain a viable and important source of legal source income tax investigations,
and we are encouraged by increases in CI’s FY 2010 investigations, as well as the results of the
VDP and advances in the international area. The percentage of subject investigations originating
from within the IRS increased slightly to 33.6 percent in FY 2010 compared to 33 percent in
FY 2009.23 CI reported receiving 539 fraud referrals in FY 2010, a 6.7 percent increase from the
505 received in FY 2009.24 The number of fraud referrals received by CI increased after
2 consecutive years of decreases. CI personnel attribute the improvement to CI’s efforts to
increase outreach with other IRS operating divisions, biannual compliance council meetings, and
assistance in Fraud Technical Advisor training development and delivery.
There are far more compliance employees than law enforcement officers in the IRS. At the end
of FY 2010, IRS compliance employees included 11,648 Revenue Agents, 4,068 Revenue
Officers, and 1,400 Tax Compliance Officers compared to 2,738 IRS law enforcement
employees. IRS compliance employees represent the front line of contact with many of
America’s taxpayers (or, as is occasionally the case, non-taxpayers), and can reach many more
people than CI special agents. In April 2009 and in conjunction with IRS operating divisions, CI
issued a “How to Write a Criminal Fraud Referral” reference guide for compliance employees.
CI management stated that better communication and collaborative efforts have yielded an
increase in quality referrals with viable criminal potential. In addition, CI consistently
emphasizes the importance of fraud referrals and their timely evaluation within 30 workdays.
The increased emphasis on fraud referrals appears to have been a positive factor in some key
performance measures from the FY 2009 results. Specifically:
       •   Subject Criminal Investigations initiated increased 8.7 percent.
       •   Prosecution Recommendations increased 17.3 percent.
       •   Convictions increased 23.4 percent.




23
     See Appendix IV, Figure 6.
24
     See Appendix IV, Figure 7.
                                                                                        Page 12
                         Trends in Criminal Investigation’s Enforcement
                      Activities Showed Improvements for Fiscal Year 2010,
                            With Gains in Most Performance Indicators



Results of the VDP
The IRS’s VDP provides a way for taxpayers with previously undisclosed income to contact the
IRS and resolve their tax matters. CI is the key entry point, through the VDP, for noncompliant
taxpayers to get back into the tax system. During FY 2010, the VDP provided information on
banks and professionals, including foreign professionals, who facilitated tax evasion. More than
15,000 Americans, with offshore accounts holding millions of dollars, came forward to disclose
information during the voluntary disclosure period that ended in October 2009, bringing
noncompliant taxpayers back into the United States tax system. Since October 2009, an
additional 3,000 Americans came forward with accounts at various banks.
The VDP did not apply to taxpayers whose income was derived from illegal activities. Tax
professionals and individuals who wanted to initiate a voluntary disclosure were directed to
contact their nearest CI office. During FY 2010, the IRS began reviewing the information from
Program participants to identify financial institutions, advisors, and others who promoted or
otherwise helped Americans hide assets and income offshore. CI plans to use the data and leads
from the voluntary disclosures in investigations and prosecutions of major violators.

Advances in International Operations
In support of CI’s mission, the Office of International Operations’ purpose is to ensure
international law enforcement cooperation between foreign governments and CI field offices
as it relates to investigating potential criminal violations of the Internal Revenue Code and
related financial crimes. During the week of
August 17, 2010, the Office of International                 CI’s International team is
Operations held an all-employee meeting in                     focused on providing
preparation for its organizational standup on                 investigative support to
October 1, 2010. CI’s entire International team               the local field office and
                                                          developing international cases.
(consisting of headquarters, overseas, and
training staff) convened to discuss the structure,
vision, and expectations for the newly established office, with a focus on providing investigative
support to the local field office and international case development.
The Office of International Operations disseminated procedures and policies designed to enhance
investigation support and international case development. These include the use of an online
international assistance process to enhance and streamline investigative support. For example,
when CI special agents in the field need assistance from a foreign country, they can fill out an
online request form that is routed to the Office of International Operations. The Office reviews
and assigns the request to CI attachés around the world. CI attachés work the requests through
appropriate channels and provide resources to the field agents.
In March 2010, CI established a definition for international investigations to more effectively
identify and track these types of cases. Cases that meet the definition of an international
investigation are:
                                                                                           Page 13
                            Trends in Criminal Investigation’s Enforcement
                         Activities Showed Improvements for Fiscal Year 2010,
                               With Gains in Most Performance Indicators



   •      Any investigation containing international transactions and/or international components
          that are a substantial part of the investigation or substantially enhance the outcome of the
          investigation.
   •      Any person or entity that directs, promotes, or is used to promote a tax evasion scheme of
          which international transactions are an integral part of the scheme.
CI uses these definitions to identify international cases and track them through the CIMIS. CI’s
fourth quarter BPR report shows there were 327 international investigations in its open inventory
and 351 international subject criminal investigations initiated. An Office of International
Operations’ executive stated that the Office’s policies and procedures will be refined and adapted
as necessary in FY 2012 and a baseline for performance measures will be established for
international investigations.
CI has established international posts in 10 cities worldwide. Figure 7 shows the geographical
locations of these 10 posts of duty for special agent attachés (i.e., Sydney, Australia; Bridgetown,
Barbados; Ottawa, Canada; Beijing and Hong Kong, China; Bogota, Columbia; London,
England; Frankfurt, Germany; Mexico City, Mexico; and Panama City, Panama).
                     Figure 7: Criminal Investigation’s International Posts



                                     London
                                                  Frankf urt
                         Ottawa
                                                                                   Beijing


                        Bridgetown
   Mexico City
                          Bogotá
       Panama City




                                                                                             Sydney




 Source: CI Headquarters.




                                                                                              Page 14
                         Trends in Criminal Investigation’s Enforcement
                      Activities Showed Improvements for Fiscal Year 2010,
                            With Gains in Most Performance Indicators



Conclusion
During FY 2010, CI committed to focus its resources on the delivery of high-impact,
high-quality investigations. Our results showed CI achieved improved performance by
committing resources to legal and illegal source tax investigations and working closely with the
IRS operating divisions to develop and investigate tax cases. CI made changes to its oversight
procedures and achieved increases in case initiations and completions, although special agent
staffing increased only slightly from FY 2009 levels. CI implemented a back-to-basics approach
to focus the special agents on developing cases with better prosecution potential and realized
efficiency improvements in the average number of days to recommend legal and illegal source
investigations for prosecution. Finally, CI is working to strengthen its fraud referral program and
emphasize the VDP and, starting October 1, 2010, CI stood up the Office of International
Operations. CI’s combined commitments help the IRS’s overall efforts to reduce the Tax Gap.




                                                                                           Page 15
                               Trends in Criminal Investigation’s Enforcement
                            Activities Showed Improvements for Fiscal Year 2010,
                                  With Gains in Most Performance Indicators



                                                                                     Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to provide a statistical portrayal with trend analyses of
CI’s enforcement activities for FYs 2006 through 2010.
To accomplish our objective, we relied on information accumulated by the IRS and CI in
established reports and from the CIMIS. We did not verify the accuracy of the information. The
major issues we focused on included:
       •   Special Agent1 Staffing.
       •   Investigations:
           a. Initiated.
           b. Open.
           c. In Pipeline.
           d. Closed.
           e. Referred for Prosecution.
       •   Subsequent Legal Actions.
       •   Compliance Strategy Programs.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We did not assess internal
controls because doing so was not applicable within the context of our objective.




1
    See Appendix VI for a glossary of terms used in this report.
                                                                                            Page 16
                       Trends in Criminal Investigation’s Enforcement
                    Activities Showed Improvements for Fiscal Year 2010,
                          With Gains in Most Performance Indicators



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank W. Jones, Director
Doris J. Hynes, Audit Manager
Gwendolyn M. Green, Lead Auditor
Frank I. Maletta, Auditor




                                                                                      Page 17
                        Trends in Criminal Investigation’s Enforcement
                     Activities Showed Improvements for Fiscal Year 2010,
                           With Gains in Most Performance Indicators



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Director, Strategy, Criminal Investigation SE:CI:S
Director, Operations Policy and Support, Criminal Investigation SE:CI:OPS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Planning and Strategy, Criminal Investigation SE:CI:S:PS




                                                                                    Page 18
                               Trends in Criminal Investigation’s Enforcement
                            Activities Showed Improvements for Fiscal Year 2010,
                                  With Gains in Most Performance Indicators



                                                                                                           Appendix IV

             Detailed Charts of Statistical Information

 Figure 1 – Total Special Agent and Field Special Agent Staffing at the End of
            Each Fiscal Year ......................................................................................... Page 21
Figure 2 – Percentage of Special Agent Direct Investigative Time Expended
           Each Fiscal Year ......................................................................................... Page 21
Figure 3 – Number of Subject Investigations Initiated and the Number Initiated
           per Field Agent Each Fiscal Year ............................................................... Page 22
Figure 4 – Number of Subject Investigations Initiated Each Fiscal Year for
           Tax-Related or Nontax-Related Violations and the Percentage
           That Is Tax-Related .................................................................................... Page 22
Figure 5 – Number of Subject Investigations Initiated Each Fiscal Year by
           Compliance Strategy Program and the Percentage That Is
           Legal Source Tax Crimes ........................................................................... Page 23
Figure 6 – Number of Subject Investigations Initiated Each Fiscal Year by
           Source of the Allegation or Information..................................................... Page 23
Figure 7 – Number of Fraud Referrals Received Each Fiscal Year and the
           Percentage Accepted................................................................................... Page 24
Figure 8 – Number of All Types of Investigations Open at the End of Each
           Fiscal Year .................................................................................................. Page 24
Figure 9 – Number of Open Subject Investigations Each Fiscal Year for
           Tax-Related or Nontax-Related Violations and the Percentage
           That Is Tax-Related .................................................................................... Page 25
Figure 10 – Number of Open Subject Investigations Each Fiscal Year by
            Compliance Strategy Program and the Percentage That Is
            Legal Source Tax Crimes ........................................................................... Page 25
Figure 11 – Average Elapsed Days of Subject Investigations Discontinued and
            Referred for Prosecution Each Fiscal Year ................................................ Page 26




                                                                                                                       Page 19
                               Trends in Criminal Investigation’s Enforcement
                            Activities Showed Improvements for Fiscal Year 2010,
                                  With Gains in Most Performance Indicators



Figure 12 – Number of Subject Investigations Referred for Prosecution
            Each Fiscal Year for Tax-Related or Nontax-Related Violations
            and the Percentage That Is Tax-Related ..................................................... Page 26
Figure 13 – Number of Subjects Convicted and Sentenced for a Crime Each
            Fiscal Year .................................................................................................. Page 27
Figure 14 – Number of Subjects Convicted of a Crime Each Fiscal Year by
            Compliance Strategy Program and the Percentage That Is
            Legal Source Tax Crimes ........................................................................... Page 27
Figure 15 – Number of Subjects Sentenced for a Crime Each Fiscal Year for
            Tax-Related or Nontax-Related Violations and the Percentage
            That Is Tax-Related .................................................................................... Page 28
Figure 16 – Number of Subjects Sentenced for a Crime Each Fiscal Year by
            Compliance Strategy Program and the Percentage That Is
            Legal Source Tax Crimes ........................................................................... Page 28
Figure 17 – Percentage of Investigations That Received Publicity Each
            Fiscal Year by Compliance Strategy Program ........................................... Page 29




                                                                                                                        Page 20
                                                            Trends in Criminal Investigation’s Enforcement
                                                         Activities Showed Improvements for Fiscal Year 2010,
                                                               With Gains in Most Performance Indicators



                                                Figure 1: Total Special Agent and Field Special Agent Staffing
                                                               at the End of Each Fiscal Year.

                                        3,000



                                        2,800
                                                   2,804
                                                                                                                            2,751
                   Special Agents




                                                                  2,684                                           2,725
                                        2,600
                                                                                          2,617

                                                   2,511
                                        2,400
                                                                   2,435                                                    2,438


                                        2,200
                                                                                          2,271                   2,235


                                        2,000
                                                   FY 06          FY 07                   FY 08                  FY 09      FY 10

                                                                   Total Special Agents             Field Special Agents

Source: CI’s analysis of staffing information.


                                                Figure 2: Percentage of Special Agent Direct Investigative Time
                                                                 Expended Each Fiscal Year.


                                         65%
 Direct Investigative Time Percentage




                                         64%


                                         63%


                                         62%


                                         61%
                                                     63.2%




                                                                     65.0%




                                                                                            64.1%




                                                                                                                   64.4%




                                                                                                                             65.0%




                                         60%


                                         59%
                                                   FY 06          FY 07                   FY 08                 FY 09      FY 10


Source: CIMIS Report INV001 (Criminal Investigation Summary Statistics).



                                                                                                                                     Page 21
                                                                                  Trends in Criminal Investigation’s Enforcement
                                                                               Activities Showed Improvements for Fiscal Year 2010,
                                                                                     With Gains in Most Performance Indicators



                                                              Figure 3: Number of Subject Investigations Initiated and the
                                                                  Number Initiated per Field Agent Each Fiscal Year.

                                                      5,000                                                                                                                          3.00




                                                                                                                                                                                                       Investigations Initiated Per Field Agent
                                                      4,500




                                                                                                                                                                           4,706
                  Initiated Subject Investigations




                                                      4,000                                                                                                                          2.50
                                                                                              4,211




                                                                                                                                                 4,121
                                                                       3,907




                                                      3,500




                                                                                                                        3,749
                                                      3,000                                                                                                                          2.00
                                                      2,500
                                                      2,000                                                                                                                          1.50
                                                      1,500
                                                      1,000                                                                                                                          1.00
                                                       500
                                                         0                                                                                                                           0.50
                                                                      FY 06                  FY 07                     FY 08                    FY 09                     FY 10

                                                                                             Subject Initiations                       Initiations per Field Agent


Source: CIMIS Report INV002 (Summary by Program Area) and our analysis based on the number of field
special agents provided by CI.


 Figure 4: Number of Subject Investigations Initiated Each Fiscal Year for Tax-Related
         or Nontax-Related Violations and the Percentage That Is Tax-Related.


                                                     3,000                                                                                                                          100%
                                                                                                                                                                            2,889




                                                     2,700
  Initiated Subject Investigations




                                                                                                                                                                                            Tax-Related Percentage
                                                                                                                                                   2,612




                                                     2,400                                                                                                                          90%
                                                                                                 2,516
                                                                           2,445




                                                     2,100
                                                                                                                           2,283




                                                     1,800                                                                                                                          80%
                                                                                                                                                                  1,817
                                                                                     1,695




                                                     1,500
                                                                                                                                        1,509
                                                                                                               1,466
                                                              1,462




                                                     1,200                                                                                                                          70%
                                                      900
                                                      600      62.6%                                                                     63.4%                                      60%
                                                                                                                   60.9%                                           61.4%
                                                      300                              59.7%

                                                        0                                                                                                                           50%
                                                                FY 06                  FY 07                       FY 08                  FY 09                     FY 10
                                                                                   Nontax-Related                        Tax-Related                       % Tax-Related



Source: CIMIS Report INV002 (Summary by Program Area).


                                                                                                                                                                                            Page 22
                                                                                         Trends in Criminal Investigation’s Enforcement
                                                                                      Activities Showed Improvements for Fiscal Year 2010,
                                                                                            With Gains in Most Performance Indicators



                           Figure 5: Number of Subject Investigations Initiated Each Fiscal Year by
                       Compliance Strategy Program and the Percentage That Is Legal Source Tax Crimes.

                                                         2,000                                                                                                                                                      100%




                                                                                                                                                                                          1,948
                                                         1,800
  Initiated Subject Investigations




                                                                                                                                                                                                   1,903
                                                                                                                                                                                                                    90%




                                                                                                                                                                                                                           Legal Source Percentage
                                                                                                                                                          1,734
                                                                                                         1,731
                                                         1,600
                                                                              1,686




                                                                                                1,664




                                                                                                                                                                   1,634
                                                                                                                                                                                                                    80%




                                                                                                                             1,531
                                                                     1,524




                                                         1,400




                                                                                                                                      1,441
                                                         1,200                                                                                                                                                      70%

                                                         1,000                                                                                                                                                      60%
                                                          800                                                                                                                                                       50%
                                                          600
                                                                                                                                                                                                                    40%
                                                          400                                                                         40.8%                       42.1%                            41.4%
                                                                             39.0%                      39.5%
                                                                                                                                                                                                                    30%
                                                                                       697




                                                                                                                   816




                                                                                                                                              777




                                                                                                                                                                             753




                                                                                                                                                                                                           855
                                                          200
                                                             0                                                                                                                                                      20%
                                                                             FY 06                      FY 07                        FY 08                        FY 09                           FY 10
                                                                                       Legal Source                 Illegal Source                  Narcotics-Related                    % Legal Source



Source: CIMIS Report INV002 (Summary by Program Area).


Figure 6: Number of Subject Investigations Initiated Each Fiscal Year by Source of the
Allegation or Information. IRS sources include fraud referrals from the compliance divisions,
investigations developed by the Fraud Detection Centers, and currency transactions.

                                                          3,000
                      Initiated Subject Investigations




                                                          2,500

                                                                                                                                                                                                                 2,605
                                                          2,000                                                  2,310
                                                                                                                                                                                   2,249
                                                                               2,085                                                          2,060
                                                          1,500
                                                                                                                                                                                                                 1,582
                                                                                  1,374                          1,367                                                        1,361
                                                          1,000
                                                                                                                                              1,211

                                                            500
                                                                                 448                             534                          478                                  511                           519
                                                                 0
                                                                               FY 06                             FY 07                        FY 08                           FY 09                              FY 10

                                                                                  United States Attorney's Offices & Other Govt Agencies                                   Public & Other                         IRS



Source: CI’s analysis of the CIMIS.



                                                                                                                                                                                                                          Page 23
                                                          Trends in Criminal Investigation’s Enforcement
                                                       Activities Showed Improvements for Fiscal Year 2010,
                                                             With Gains in Most Performance Indicators



                                           Figure 7: Number of Fraud Referrals Received Each Fiscal Year and
                                                               the Percentage Accepted.

                                 700
                                                                                                                                                 120%




                                                                                                                                                        Fraud Referral Acceptance Percentage
                                 600


                                                                612
                                                603




                                                                                                                                                 100%




                                                                                        583
      Fraud Referrals Accepted




                                                                                                                                       539
                                 500




                                                                                                                505
                                                                                                                                                 80%
                                 400

                                               71.5%          68.6%                                                                 70.3%        60%
                                                                                     67.0%                     66.8%
                                 300

                                                                                                                                                 40%
                                 200


                                 100                                                                                                             20%


                                   0                                                                                                             0%
                                              FY 06           FY 07                  FY 08                     FY 09                FY 10

                                                                      Number Received                  Percentage Accepted


Source: CIMIS Report INV001 (Criminal Investigation Summary Statistics).


  Figure 8: Number of All Types of Investigations Open at the End of Each Fiscal Year.


                                 16,000

                                 14,000
 Investigation Inventory




                                                                                                                       3,915
                                 12,000

                                 10,000                                                                                                      4,168
                                                 3,943                                                                 3,976
                                  8,000                               4,060
                                                                                               4,118
                                  6,000                                                                                                      4,363
                                                 4,034
                                  4,000                               3,981                    3,691                   6,721
                                  2,000                                                                                                      3,529
                                                 2,925                2,333                    2,013
                                       0
                                                 FY 06                FY 07                    FY 08                    FY 09                FY 10

                                                            Primary Investigations            Open Inventory           Pipeline Inventory


Source: CI’s analysis of the CIMIS. CI’s FY 2010 primary investigation inventory includes 1,044 cases as a result
of the IRS’s VDP.




                                                                                                                                                     Page 24
                                                                                Trends in Criminal Investigation’s Enforcement
                                                                             Activities Showed Improvements for Fiscal Year 2010,
                                                                                   With Gains in Most Performance Indicators



         Figure 9: Number of Open Subject Investigations Each Fiscal Year for Tax-Related
               or Nontax-Related Violations and the Percentage That Is Tax-Related.

                                              4,000                                                                                                                                                              100%
               Open Subject Investigations




                                              3,500




                                                                                                                                                                                                                         Tax-Related Percentage
                                                                                                                                                                                                                 90%




                                                                                                                                                                                      3,342
                                              3,000
                                                                 3,134




                                                                                                                                                             3,102
                                                                                                2,936




                                                                                                                             2,864
                                              2,500                                                                                                                                                              80%
                                              2,000                                                                                                             78.0%
                                                                    77.7%                                                          77.6%                                                 76.6%
                                              1,500                                                73.8%                                                                                                         70%

                                              1,000
                                                                                                                                                                                                                 60%
                                                                                                                1,045




                                                                                                                                                                                                   1,021
                                                                             900




                                                                                                                                                                         874
                                                                                                                                              827
                                                500
                                                     0                                                                                                                                                           50%
                                                                    FY 06                          FY 07                           FY 08                        FY 09                    FY 10
                                                                                         Tax-Related                          Nontax-Related                          % Tax-Related


Source: CIMIS Report INV002 (Summary by Program Area).


       Figure 10: Number of Open Subject Investigations Each Fiscal Year by Compliance
            Strategy Program and the Percentage That Is Legal Source Tax Crimes.

                                             2,500                                                                                                                                                                 65%
  Open Subject Investigations




                                                                                                                                                                                         2,300




                                                                                                                                                                                                                                                  Legal Source Percentage
                                             2,000                                                                                                                                                                 60%
                                                                                                                                                             2,119
                                                         2,006




                                                                                        1,990




                                                                                                                           1,973




                                             1,500                                                                                   53.5%                           53.3%                                         55%
                                                                                                                                                                                                 52.7%

                                                                 49.7%                            50.0%
                                             1,000                                                                                                                                                                 50%


                                              500                                                                                                                                                                  45%
                                                                     1,664




                                                                                                        1,515




                                                                                                                                      1,317




                                                                                                                                                                      1,396




                                                                                                                                                                                                  1,591
                                                                             364




                                                                                                                   476




                                                                                                                                                    401




                                                                                                                                                                               461




                                                                                                                                                                                                           472




                                                0                                                                                                                                                                  40%
                                                                 FY 06                            FY 07                              FY 08                           FY 09                       FY 10
                                                                         Legal Source                           Illegal Source                        Narcotics-Related                  % Legal Source


Source: CIMIS Report INV002 (Summary by Program Area).




                                                                                                                                                                                                                       Page 25
                                                       Trends in Criminal Investigation’s Enforcement
                                                    Activities Showed Improvements for Fiscal Year 2010,
                                                          With Gains in Most Performance Indicators



                                   Figure 11: Average Elapsed Days of Subject Investigations Discontinued and
                                                  Referred for Prosecution Each Fiscal Year.
                              500


                              450
                                           424.5               412.7
    Average Elapsed Days




                                                                                                                  412.9
                                                                                                                                                400.5
                                                                                            381.7
                              400

                                           383.8
                              350
                                                               361.2
                                                                                            341.2                    341.0
                              300
                                                                                                                                                306.4

                              250


                              200
                                           FY 06               FY 07                        FY 08                  FY 09                        FY 10
                                                                        Discontinued Cases            Referred Cases

Source: CI’s analysis of the CIMIS for FYs 2006 through 2007, CI’s BPR report for FY 2008, and the CIMIS
Report INV003 (Cycle Time Summary) for FYs 2009 and 2010.


Figure 12: Number of Subject Investigations Referred for Prosecution Each Fiscal Year
for Tax-Related or Nontax-Related Violations and the Percentage That Is Tax-Related.

                                   1,800                                                                                                                100%
 Subject Investigations Referred




                                   1,600
                                                                                                                                                        90%




                                                                                                                                                               Tax-Related Percentage
                                                                                                                                        1,527


                                   1,400
                                                                                                                                1,507
                                                                                              1,488
                                                            1,430

                                                                       1,407




                                                                                                                                                        80%
         for Prosecution




                                                    1,369
                                            1,351




                                   1,200
                                                                                    1,297




                                                                                                                  1,292
                                                                                                        1,278




                                   1,000                                                                                                                70%

                                    800                                                                                                                 60%
                                    600
                                                                                                                                                        50%
                                    400      49.7%           50.4%                                       49.7%                   49.7%
                                                                                     46.6%                                                              40%
                                    200
                                      0                                                                                                                 30%
                                               FY 06           FY 07                   FY 08               FY 09                   FY 10
                                                            Tax-Related              Nontax-Related             % Tax-Related


Source: CIMIS Report INV002 (Summary by Program Area).




                                                                                                                                                         Page 26
                                                           Trends in Criminal Investigation’s Enforcement
                                                        Activities Showed Improvements for Fiscal Year 2010,
                                                              With Gains in Most Performance Indicators



Figure 13: Number of Subjects Convicted and Sentenced for a Crime Each Fiscal Year.

                                  2,250
                                                                                                                                                     2,229
                                                                                                                                                                              2,184
                                  2,200
                                                                                    2,155
                                                                                                                                                                                    2,172
                                  2,150
             Criminal Subjects




                                                                                          2,123                                                  2,105
                                                                                                                 2,144
                                  2,100


                                  2,050
                                                          2,020
                                  2,000
                                                 2,019
                                  1,950                                                                                  1,957


                                  1,900
                                                  FY 06                            FY 07                          FY 08                          FY 09                        FY 10

                                                                                               Convicted                           Sentenced

Source: CIMIS Report INV002 (Summary by Program Area).


              Figure 14: Number of Subjects Convicted of a Crime Each Fiscal Year by
           Compliance Strategy Program and the Percentage That Is Legal Source Tax Crimes.

                                 1,200                                                                                                                                         100%

                                                                                                                                                                               90%

                                 1,000                                                                                                                                         80%      Legal Source Percentage
                                                                                                                                                                1,010
                                                                                                         958




                                                                                                                                                                               70%
                                                                             947
  Criminal Subjects




                                                 938




                                                                                                                                    934




                                  800                                                                                                                                          60%

                                                                                                                                                                               50%
                                                                      732




                                                                                                                                                         726
                                                                                                                             679
                                                                                                  666




                                  600                                                                                                                                          40%
                                          592




                                                                                                                                                                               30%
                                                                                                                520




                                                                                                                                           492
                                                        489




                                                                                    476




                                  400                                                                                                                                          20%
                                                                                                                                                                        448




                                                                                                                                                                               10%

                                  200                                                                                                                                          0%
                                                FY 06                       FY 07                       FY 08                      FY 09                       FY 10

                                                       Legal Source                  Illegal Source                   Narcotics-Related              % Legal Source


Source: CIMIS Report INV002 (Summary by Program Area).

                                                                                                                                                                                      Page 27
                                                                              Trends in Criminal Investigation’s Enforcement
                                                                           Activities Showed Improvements for Fiscal Year 2010,
                                                                                 With Gains in Most Performance Indicators



                                            Figure 15: Number of Subjects Sentenced for a Crime Each Fiscal Year for
                                         Tax-Related or Nontax-Related Violations and the Percentage That Is Tax-Related.

                                                 1,400                                                                                                                                                           85%


                                                 1,200
                  Sentenced Criminal Subjects




                                                                                                                                                                                                                 75%




                                                                                                                                                                                                                        Tax-Related Percentage
                                                                                                                                                                                                   1,118
                                                                                                                                                                      1,116
                                                                                                                                                       1,113
                                                                                          1,112

                                                 1,000




                                                                                                                                                                                         1,054
                                                                          1,024




                                                                                                                       1,016
                                                                                                        1,011
                                                                  996




                                                                                                                                      941
                                                                                                                                                                                                                 65%
                                                   800


                                                   600
                                                                                                                                                                                                                 55%

                                                   400                                      52.4%                          51.9%
                                                                   49.3%                                                                                 49.9%                                                   45%
                                                                                                                                                                                           48.5%
                                                   200


                                                        0                                                                                                                                                        35%
                                                                   FY 06                     FY 07                         FY 08                            FY 09                           FY 10

                                                                                      Tax-Related                          Nontax-Related                             % Tax-Related

Source: CIMIS Report INV002 (Summary by Program Area).


   Figure 16: Number of Subjects Sentenced for a Crime Each Fiscal Year by Compliance
          Strategy Program and the Percentage That Is Legal Source Tax Crimes.
                                                1,000                                                                                                                                                             60%
                                                                                                  978




                                                                                                                                                                                                  971
                                                                                                                                                                970




                                                 900
                                                                                                                                                                                                                  55%
                                                                                                                                864
                                                                    861




                                                 800
Sentenced Criminal Subjects




                                                                                                                                                                                                                  50%                    Legal Source Percentage
                                                 700
                                                                                                                                                      713




                                                                                                                                                                                          696
                                                                                    677




                                                                                                                                                                                                                  45%
                                                 600
                                                                                                                     645
                                                            624




                                                 500                                                                                                                                                              40%
                                                                                                                                                                              546
                                                                          535




                                                                                                                                                                                                           505
                                                                                                          468




                                                                                                                                        448




                                                 400
                                                                                                                                                                                                                  35%
                                                 300
                                                                                                                               33.0%                                                                              30%
                                                 200                                       31.9%                                                               32.0%                             32.0%
                                                                  30.9%
                                                                                                                                                                                                                  25%
                                                 100

                                                   0                                                                                                                                                              20%
                                                                  FY 06                    FY 07                           FY 08                               FY 09                             FY 10
                                                                          Legal Source                    Illegal Source                    Narcotics-Related                       % Legal Source


Source: CIMIS Report INV002 (Summary by Program Area).

                                                                                                                                                                                                                  Page 28
                                         Trends in Criminal Investigation’s Enforcement
                                      Activities Showed Improvements for Fiscal Year 2010,
                                            With Gains in Most Performance Indicators



             Figure 17: Percentage of Investigations That Received Publicity Each Fiscal Year
                                    by Compliance Strategy Program.
             100%
             90%




                                                                                                                            92.4%

                                                                                                                                     91.1%
                                                                       88.5%




                                                                                                87.9%
                                              87.1%




                                                                                86.6%




                                                                                                           85.5%
             80%
                              84.1%




                                                       82.9%
                     81.3%




             70%




                                                                                                                                             72.9%
Percentage




                                                                                                                   67.6%
             60%

                                                               62.2%




                                                                                        61.8%
                                      55.5%




             50%
             40%
             30%
             20%
             10%
              0%
                             FY 06                    FY 07                    FY 08                     FY 09                      FY 10

                                                Legal Source              Illegal Source                Narcotics-Related


Source: CI’s BPR reports.




                                                                                                                                             Page 29
                        Trends in Criminal Investigation’s Enforcement
                     Activities Showed Improvements for Fiscal Year 2010,
                           With Gains in Most Performance Indicators



                                                                                 Appendix V

                Related Treasury Inspector General
               for Tax Administration Audit Reports

1. Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities From
   Fiscal Year 1999 Through Fiscal Year 2003 (Reference Number 2004-10-115, dated
   June 29, 2004).
2. Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities From
   Fiscal Year 1999 Through Fiscal Year 2004 (Reference Number 2005-10-081, dated
   May 16, 2005).
3. Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities From
   Fiscal Year 2000 Through Fiscal Year 2005 (Reference Number 2006-10-074, dated
   May 12, 2006).
4. Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities From
   Fiscal Year 2000 Through Fiscal Year 2006 (Reference Number 2007-10-083, dated
   June 6, 2007).
5. Statistical Portrayal of the Criminal Investigation Division’s Enforcement Activities for
   Fiscal Years 2000 Through 2007 (Reference Number 2008-10-133, dated July 9, 2008).
6. Statistical Portrayal of the Criminal Investigation Division’s Enforcement Activities for
   Fiscal Years 2000 Through 2008 (Reference Number 2009-30-053, dated March 26, 2009).
7. Trends in the Criminal Investigation Division’s Enforcement Activities Showed
   Improvements; However, Some Goals Were Not Attained (Reference Number 2010-30-074,
   dated July 1, 2010).




                                                                                         Page 30
                         Trends in Criminal Investigation’s Enforcement
                      Activities Showed Improvements for Fiscal Year 2010,
                            With Gains in Most Performance Indicators



                                                                                  Appendix VI

                                 Glossary of Terms

Appropriation – A provision of law (not necessarily in an appropriations act) authorizing the
expenditure of funds for a given purpose. Usually, but not always, an appropriation provides
budget authority.
Business Performance Review – A quarterly review by an IRS operating division to report on its
performance measures, business results, employee and customer satisfaction, and other items of
importance.
Compliance Strategy Program – CI’s organizational strategy comprised of three interdependent
program areas: Legal Source Tax Crimes, Illegal Source Financial Crimes, and Narcotics-Related
Financial Crimes.
Criminal Investigation Management Information System – A database that tracks the status
and progress of criminal investigations and the time expended by special agents.
Cycle Time – Elapsed calendar days on completed investigations.
Direct Investigative Time – Time spent by special agents conducting investigations and other law
enforcement activities.
Discontinued Investigation – A subject investigation that resulted in a determination that there
was no prosecution potential.
Elapsed Days – The number of days between the initiation of a subject investigation to another
date, such as the date discontinued or the date referred for prosecution.
Field Special Agent – A special agent in one of CI’s 26 field offices.
Fraud Referral Program – A program designed as a partnership between CI and the IRS
operating divisions to promote fraud awareness and assist with fraud training.
Full-Time Equivalent – A measure of labor hours in which 1 FTE is equal to 8 hours multiplied
by the number of compensable days in a particular fiscal year. For FY 2010, 1 FTE was equal to
2,088 staff hours.
Gross Tax Gap – The difference between the amount of tax that taxpayers should pay under the
tax law and the amount they actually pay on time.
Illegal Source Financial Crimes – Crimes involving illegally earned income, including crimes
involving money laundering, 18 United States Code (U.S.C.) Sections (§§) 1956 and 1957;


                                                                                           Page 31
                         Trends in Criminal Investigation’s Enforcement
                      Activities Showed Improvements for Fiscal Year 2010,
                            With Gains in Most Performance Indicators



sections of U.S.C. Title 31, Money and Finance; and U.S.C. Title 26 violations investigated in
conjunction with other agencies.
Internal Revenue Code – The codified collection of United States laws on income, estate and gift,
employment, and excise taxes, plus administrative and procedural provisions.
Inventory per Special Agent – The number of open subject investigations divided by the number
of field special agents whose salary grade level is 13 or below and having various position
descriptions, including those of coordinator and reviewer.
IRS Oversight Board – A nine-member independent body charged to oversee the IRS in its
administration, management, conduct, direction, and supervision of the execution and application
of the Internal Revenue laws. The IRS Oversight Board provides experience, independence, and
stability to the IRS so it may move forward in a cogent, focused direction.
Legal Source Tax Crimes – Crimes involving legal industries and occupations and legally earned
income.
Narcotics-Related Financial Crimes – Crimes involving tax and money laundering related to
narcotics and drug trafficking.
Pipeline Inventory – A subject investigation that has been recommended for prosecution and the
subject has not been convicted or acquitted, or the investigation has not been dismissed. It
excludes investigations where the subject became a fugitive after indictment.
Primary Investigation – An evaluation of an allegation that an individual or entity is in
noncompliance with the Internal Revenue laws and related financial crimes.
Program Assessment Rating Tool – A tool developed to assess and improve program
performance so that the Federal Government can achieve better results. Specifically, the review
helps identify a program’s strengths and weaknesses to inform funding and management decisions
aimed at making the program more effective.
Questionable Refund Program – An IRS nationwide, multifunctional program designed to
identify fraudulent returns, stop the payment of fraudulent refunds, and refer identified fraudulent
refund schemes to CI’s field offices.
Referred for Prosecution – A subject investigation that resulted in the determination of
prosecution potential and referred to the Department of Justice or to a United States Attorney’s
Office.
Reimbursable Resources – Funds received by CI as the result of agreements with other Federal
agencies, for which CI performs certain types of work, generates expenditures, and in turn the
other agency reimburses CI.




                                                                                             Page 32
                         Trends in Criminal Investigation’s Enforcement
                      Activities Showed Improvements for Fiscal Year 2010,
                            With Gains in Most Performance Indicators



Return Preparer Program – A program that pursues unscrupulous return preparers who
knowingly claim excessive deductions and exemptions on returns prepared for clients. The clients
may or may not have knowledge of the false claims.
Special Agent – CI law enforcement employee who investigates potential criminal violations of
the Internal Revenue laws and related financial crimes.
Subject Investigation – An investigation of an individual or entity alleged to be noncompliant
with the laws enforced by the IRS and having prosecution potential.
Tax-Related Violation – A violation involving Title 26, Title 33 sections, or one of the following
Title 18 sections: § 286, § 287, § 371, or § 514 associated with a Title 26 violation, or § 371
associated with a Title 26 and a Title 31 violation.
Tax Year – A 12-month accounting period for keeping records on income and expenses used as
the basis for calculating the annual taxes due. For most individual taxpayers, the tax year is
synonymous with the calendar year.
Total Tax Percentage – The percentage of direct investigative time devoted to legal source and
illegal source tax cases. It includes time spent on legal source general investigations that are a
source of tax subject investigations.




                                                                                             Page 33
